.,




                     WORKING TOWARD JOBS


                           The Massachusetts

               Employment and Training (ET) Choices Program




           UWJCES.




     '0


          I1Vd:m



     OFFICE OF INSPECTOR GENERAL
     OFFICE OF EV ALVA TION AND INSPECTIONS
                                                              MAY 1990
OFFICE OF INSPECTOR GENERAL


    The mission of the Offce of Inspector General (DIG) is to promote the effciency,
    effectiveness, and integrty of programs in the United States Deparment of
    Health and Human Services (HS). It does this by developing methods to detect
    and prevent frud , waste, and abuse. Created by statute in 1976, the Inspector
    General keeps both the Secretar and the Congress fully and cUITendy informed
    about progrs or management problems and recommends COITective action.
    The DIG performs its mission by conducting audits, investigations, and
    inspections with approximately 1, 400 staf strategically located around the
    countr.



OFFICE OF EVALUATION AND INSPECTIONS


    This repon is produced by the Office of Evaluation and Inspections (DEI), one of
    three manor offces within the DIG. The other two ar the Offce of Audit
    Services and the Offce of Investigations. Inspections are conducted in
    accordance with professional standards developed by DEI. These inspections are
    typicaly shon-term studies designed to determne program effectiveness,
    effciency, and vulnerabilty to frud or abuse.

    This technical repon was prepared to describe the operation of the Massachusetts
    Employment and Training (ET) Choices program. This technical repon is par of
    a larger study which was conducted to describe the operation of a sample of
    matur, well-regarded and comprehensive work programs for AFDC recipients
    and the insights of the administrators of those programs.

    This repon was prepared under the direction of Emilie Baebel , Chief, Public
    Health and Human Services Branch. This project was lead by Suzanne Murrn
    that branch.
                      The Massachusetts
          Employment and Training (ET) Choices Program




                         Richard P. Kusserow

                         INSPECTOR GENERAL





OEI-12-89-0 1324                                     MAY 1990

                                                                                                                                  """
                                  . . . .. .. .. .. .. .. .. .. .... .... .... .... ........................ ... ... ... ... ... .... .... .... .... .... ............................................. .... ... ... ... ... ... ...




                                                                                                                                                                                                                          1111

INTRODUCTION


PROGRAM PROFILE. 
                                                                                                                                                                      ...........2

            THE STATE OF MASSACHUSETTS                                                                                                                                                                                         . 2



            THE MASSACHUSETTS AFDC PROGRAM.                                                                                         . . . . . . . . . . . . . . . . . . . . . . . . 2


            THE MASSACHUSETTS AFDC WORK PROGRAM                                                                                                                                                                                . 2



                     General Background. 

                     Administrative Issues                                                                                                                                                                                     . 3



                     Participation Issues. .                                                                                                                                                                                   . 5



                     Program Activities                                                                                                                                                                                        . 7




Appendix A
            OVERVIEW STATEMENT.                                                                                                                                                                                        .A-


Appendix B

     SAMPLE DOCUMENTS                                                                                                                                                                                                  . B­
_.I'ii

            This technical repon is par of a series of
            profies on the Aid to Famlies with Dependent
            Children (AFC) work programs paricipating
            in the Working Toward JOBS 
   project.

            Each profie begins with a categorized
            description of the subject AFC work program
            which is based on mail guides submitted by the
            program. Appendix A includes an overview
            statement wrtten by the program manager. It
            describes the program, its goals, philosophy and
            lessons leared. Appendix B is a sample of
            documents used to conduct the program. Each
            program administrator was asked to submit
            sample documents which they felt would be
            useful to States and counties developing JOBS
            programs.

            Data collection for this study was done from
            Apri to September of 1989. The information in
            the overview and technical repons is based on
            pre- JOBS work programs for AFC recipients.
            As these programs have convened to JOBS,
            they may have made some changes to meet
            JOBS legal and regulatory requirements.
            Where possible , we have noted the changes the
            program administrators anticipated at the time
            of our data collection.




Massachusetts                              INTRDUCTION
                                                                             '''ill

THE STATE OF MASSACHUSETTS

            Population: 5 849, 000

            Main industres: services, wholesale/retail trade, manufacturing

            First quarer 1989 unemployment rate: 3.4 percent

            Average income for a family of four: $44 329

            Number of people who are economically disadvantaged: 642 783



THE MASSACHUSETTS AFDC PROGRAM

            For Fiscal Year (FY) 1988:
            Total cost: $605 700, 000
            Federal share: $270, 000, 000 State share: $335 700, 000
            AFC cases: 84 300 (monthly average)
            75 percent in urban settings , 25 percent in rural
            Average age: 30 years
            education level: 50 percent have a GED or high school diploma
            Average number of children in grant: 2
            66 percent of AFC recipients have a child under 6
            length of spell on AFC: 25 and 1/2 months
            Case closures in FY 1988: 36, 115 cases (duplicated)
            Case closures for clients who participated in work program (beyond registration):
               794 (unduplicated)


THE MASSACHUSETTS AFDC WORK PROGRAM


General Background

Name:        Employment and Training (ET) CHOICES

Operating Since:        October 3, 1983



Program Philosophy: 
       The underlying philosophy of ET is to give clients the education
            training, and support services necessar to help them choose work over welfare.
            The objective of the program is to provide clients with appropriate education and
            training which wil enable them to obtain priority jobs, leading to economic self-
            sufficiency and ending their welfare dependency. A key to this has been the provi­
            sion of support services while in training as well as day care and medical
            coverage during the client s transition off welfare.



Massachusetts                                 PROGRAM PROFILE
             The concept of priority jobs was developed to increase the number of people
             placed in higher paying jobs. Higher paying jobs result in people staying
             employed and being self-suffcient, thereby avoiding the welfare rolls. The State
             Fiscal Year 1988 definition of a priority job was a full-time position , lasting more
             than 30 days and paying a minimum of $6. 00 per hour.

Program Administrator:
             Ronald T. Newcomb
             Director
             Employment and Training Program Management
             Department of Public Welfare
             600 Washington Street
             Boston , MA 02111
             (617) 574- 0203


Administrative Issues

Structure:      The Massachusetts Deparent of Public Welfare (DPW) administers ET state­
             wide. Each year the DPW establishes goals that specify the number of refeITals
             and placements each local offce is responsible for achieving and the local offices
             develop plans to reach these goals.

             The central State office obtains local offce input through regular meetings. Once
             a month the 57 diectors of the local welfare offices have a day long meeting with
             the State Welfare Commissioner. The local assistant directors for program also
             meet monthly in clusters which routinely include some detailed two-way
             communication about ET.

Funding:         (in millons of dollars)

                                               Federal                 State               Total

             Program Funds:

             Supportive Services:

             Total:

Staff:       Case managers , located in each local office, have primar responsibility for ensur­
             ing that clients are provided the program and employment information needed to
             parcipate in ET. The case manager has an ongoing relationship with the client
             and acts as the client s advocate. The other members of the case management
             team are: the ET specialist , the child support specialist, the health choices advisor




Massachusetts                                   PROGRAM PROFILE
                 (including health insurance subsequent to employment), and the housing
                 specialist.

                 The ET specialist is responsible for knowing all of the varous activities available
                 under ET and helping the client decide which activity is right for them. One
                 specialist described herself as a " walng, talng phone book. " There ar 166
                 specialists who spend 100 percent of their time on ET.

Success Measurements: 
          Massachusetts monitors the effectiveness ofET by tracking the
                 number of placements in priority jobs, AFC savings and increased revenue to
                 the State.



Recordkeeping:             Two of the DPW' s computer systems ar      used to track eligibilty,
                 demogrphic, and ET parcipation and activity for all AFC clients.

Provision of Services: 
        Services such as education , skills training, work supplementation
                 and job development and placement require facilties and expenise which DPW
                 does not curntly have at its disposal. The DPW contracts for these services (see
                   Outside Resources " below). Because DPW believes services to the poor should
                 not be profit makg, they limit ET contractors to non- profit and not- for- profit en­
                 tities.

                 Contractors are selected by means of a competitive Request for Proposal (RFP)
                 which is publicly advertsed. A commttee composed of representatives from the
                 legal, budget, finance, audit and employment and training units convene to rate
                 the proposals.

                 All contrcts are performance based, with specific goals which must be met.
                 Reimburement is directly tied to contractor results.

                 The DPW diectly provides case man agement and supportve services.

Outside Resources: 
           Many critical services provided as par of the ET program are
                 provided through contracts with other State and non-profit agencies which are su­
                 pervised by the DPW' s ET Program Unit. The bulk of the ET program s job
                 search, education, and skils trning services are cared out via an Inter­
                 deparental Service Agreement (ISA) between the DPW and the Massachusetts
                 Division of Employment Security (DES) which provides job search services
                 through the Employment Network , and the Offce of Training and Employment
                 Policy for skills training and education through the 15 Service Delivery Areas
                 (SDAs) and Prvate Industr Councils (PICs) statewide.


                 Additional skils training services focusing on constrction and health professions
                 are provided through a contrct with the non- profit Bay State Skils Corporation
                 (BSSC). Assisted placement services (including supponed work) ar provided

 Massachusetts                                      PROGRAM PROFILE
               through contracts with community based organizations. Voucher day care
               services are caIed out through an ISA with the Massachusetts Deparment of
               Social Services (DSS). Transition services, which are job-readiness activities
               focused on preparng ET paricipants for employment and helping them to
               maintan employment are provided through a contract with the BSSC.
               Parcipants may also enroll in up to two community college courses through a
               program operated by the State Board of Regents.

Evaluations:          The ET program has performed two in house evaluations. "Evaluation of
               the Massachusetts Employment and Training Choices Program: Interim Findings
               on Participation and Outcomes, FY 1984- 1985" was completed in January 1986.
               It describes programmatic developments, structure, client choices , paricipation
               patterns, outcomes and implications.

                An Analysis of the First 25, 000 ET Placements, " was completed in August 1986.
               This used agency records to repon the demographics , wages, case closings, and
               overall impact of ET caused by the early placements. At the same time, a
               telephone surey of 808 of these placements was conducted. The survey focused
               on present employment, job retention , wages, medical coverage, welfare status
               and demographics. The analysis concluded that two- thirds of ET placements
               were in full-time jobs paying $11, 000 per year. Eighty-six percent of ET
               placements who left the caseload were stil off 1 year later. During this period 67
               percent of full- time placements were off welfare 1 year after employment. This
               has risen to 75 percent in the past 2 years.

               The Urban Institute is cUITently conducting an evaluation of ET. Their 18 month
               evaluation wil focus on the effectiveness of ET and what activities work best.

               Abt Associates is conducting a 12 month follow-up study of FY 1986 and FY
               1987 ET job placements.


 Participation Issues



Participant Descriptors: 
        CUITently there are 36, 219 clients registered for ET. In FY
               1988,     100 clients paricipated in an ET activity. An additional 5 600 partici­
               pated in assessment and career planning only.

               Seventy- five percent of ET paricipants live in urban settings, the other 25 percent
               live in rural settings. Slightly over 6 percent of ET participants are under age 20;
               29 percent are between 20 and 25; 21 percent are 26- 29; 33 percent are in their
               30s, and 11 percent are 40 or over. Thirty-nine percent have less than a high
               school diploma; 38 percent have a high school diploma or equivalent; and 23
               percent have some post secondar education. There are usually 1- 2 children in



 Massachusetts                                   PROGRAM PROFILE
              the grant of a paricipant. This is slightly less than the general Massachusetts
              welfare population. Fifty-eight percent have children under 6 years of age.

Target Groups: 
           The target groups are: 1) long- term recipients (defined as having a prior
              welfare history or on the caseload over 2 years); 2) public housing residents; 3)
              the Hispanic population; and 4) pregnant and parenting teens.

              Contractors must demonstrate a sensitivity to and an abilty      to help targeted
              clients overcome their paricular barers to employment. Long term recipients
              and public housing residents have major barers: a lack of recent work and
              isolation. Hispanic residents face special language and cultural barers which
              must be considered an important par of any plan leading to their economic
              self-sufficiency.

              Pregnant and parenting teens are served by a separate set of contractors who zero
              in on their special needs caused by an inteITuption in education and/or work
              expenence.

Mandatory Activities/Sanctions:             All non-exempt clients are required to register for ET
              but paricipation is voluntar. No sanctions were applied in FY 1988.

Volunteers:         All ET paricipants ar volunteers. The DPW encourages AFDC recipients
              to join ET at entr and redetermination. They stress that clients wil receive ET
              services which wil result in a good job with labor market mobility. Special care
              is taen to assure clients that they wil receive needed support services.

              In addition , the DPW maintans an extensive outreach program including direct
              mailings (which can be tageted to special populations), posters, newsletters,
              brochures, and community events such as job fairs. The DPW has an in- house
              marketing staff which develops the marketing instruments, tests them on focus
              groups of AFC recipients, and oversees their distrbution. Past campaigns have
              featured: success stories, ET CHOICES, and Ask Barbara (the DPW
              commissioner). The CUITent campaign is called " My Mom and ET." This
              campaign approaches welfare recipients through the one thing Massachusetts
              market research found them to be proud of, their children. Campaign materials
              include coloring books, calendars, and posters.

              The ET contractors also recruit through direct media advertising.

Employment Placements: 
           In calendar year 1988, ET was responsible for 2355 part- time
              or non- priority placements and 10, 677 full- time, priority jobs. A total of 933 of
              those entering par-time employment or non- priority jobs were able to leave the
              welfare rolls. The 7, 861 of those paricipants entering priority jobs had their
              cases closed and they remained closed at the end of FY 1988. Most placemen
              are in the service industry, word processing or other secretarial positions, or pro-

Massachusetts                                       PROGRAM PROFILE
              fessionaVmanagerial (e. g., health and social service managers). Average starting
              hourly wage is $6. 75. 90 percent of all placements remain employed for 30 days.
              78 percent of all placements remain employed for 6 months. Approximately 25
              percent ofFY 1988 priority job finders did not leave or have rejoined AFDC, the
              priar reasons being day care and health care problems.
Program Activities

Models:          Each program administrator was asked to describe two services which they con­
              sider models. The ET program administrator chose the Dimock Community
              Health Center and Home Health and Child Care in Brockton.

              Dimock Community Health Center        s skils training   courses are housed in a
              former hospital building which is located in the hear of Boston. It is easily
                                                                               All programs
              accessible by public transportation and provides on-site day care.
              are conducted during school hours: 5 and 1/2 hours a day, 5 days per week. The
              programs offered ar: Surgical Technician (43 week course), Central Supply (14
              week course), Third Pary Biler (16 week course), and Mental Health Counselor
              (22 week course). The average wages of program graduates working in these
              fields ranges from $7. 25- $10. 50 an hour.

              Home Health and Child Care in Brockton (HCC) formed the " Child Care
              Directors Connection " - a coalition of support groups for directors of center- based
              programs in the Brockton area. One purpose of the group is to help generate
              positive publicity about child care and early childhood education. In January
              1989, HHCC launched a provider recruitment campaign which included
              designing two bilboards on main thoroughfares in Brockton and Plainvile. The
              bilboards read: " TomoITow     is in our hands: become a child care provider.

              The HHCC has also provided leadership and technical assistance in establishing
              teen parent programs in the area. HHCC has appeared on cable several times this
              year to market/inform the public about their services.

Sequencing:           Figure 1 shows the general sequence of activities for participants in ET.

Program Activities Listing: 
     What follows is a description of the program activities avail­
              able under ET. Cost and paricipation figures are for FY 1988.




Massachusetts                                     PROGRAM PROFILE
            JET CHOITCJES fJLOW CClHAJRT


                                                      Education

                                              Adult Literacy Programs

                                              English as a Second Language
                                              Adult Basic Educa tlon
                                              Community College
Case Management
                   Registrationl Appraisal              Training
I ET Choices 1-+                                Vocational Education

                    Support Services
           Skills Training

                    Daycare
                    (JTPA/Bay State Skills Corp.
 CommonHealth       Transportation

 Health Choices                                                                    Unsubsidized Employment
 Child Support
 Housing
                                                  Assisted Placement*
                                                (On-the-Job Training)



                                             Job Development/Placement
                                             (Department of Employment Training)




                                                                                    * Includes Grant Diversion
Orientation
Activity:         Clients are oriented on the program activities and services available and their
             rights and responsibilties while in the program. Orientation begins with the
             AFC case manager who tells the recipient what ET is, and encourages her to
             meet with the ET specialist. The ET specialist wil tailor the orientation to the
             needs of the recipient, asking questions as well as providing information.

How Provided: 
        Provided by the local office employment and training specialist. The ini­
             tial orientation is conducted though oral as well as written presentations.

Participants: 43, 700.



Assessment
Activity:      An initial appraisal of the client s work history, educational level , barers to
             employment and service needs is made. This information is primarly captured
             on the Family Independence Plan form. For the most par, clients who are unsure
             of their diection are refeITed to one of the State s 15 Service Delivery Areas for a
             more in- depth assessment of their interest, aptitude and academic achievement
             level. By and large clients who are directly refeITed to a program activity receive
             more program specific testig of their academic achievement level , and/or apti­
             tude and/or interest level in order to be placed at an appropriate level.

How Provided: 
       The initial appraisal is done at the local offce level through interviews
             and the completion of information forms. An educational and skils assessment
             cared out through interviews, completion of appropriate forms and the use of
             varous testing instrments. If a detailed career assessment is needed the client is
             generally refeITed to a contracted service.

 Participants: 43, 700.



 Employabilty Planning


 Activity:     The employment plan consists of an employment goal for the client , detail of in­
             cremental steps to be taken to reach stated goal , identification of any barrers to
             employment and support services needed.

 How Provided: 
      Developed by the client and local office worker. The employment plan
             is developed through interviews and the completion of appropriate forms.

 Participants: 43         700.




  Massachusetts                                    PROGRAM PROFILE
.'




     Supportive Services
     Activity:           Day care: voucher day care , contracted day care, independent day care. Trans­
                       porttion: reimbursement up to $10. 00  per day for actual expenses.

     How Provided:              Voucher day care: Information and     refeITal, provider biling   and reimbur­
                     . sement provided by contractors. Day care services provided by licensed and reg­
                       istered center- based,   school-age programs, and family day care providers       both
                       independent homes and members of Famly Day Care Systems.

     Contracted day care: 
            services provided by licensed and registered center- based and
                       school age   progrms and Family Day Care Systems under contract with the State
                       Deparent of Social       Services.


     Independent day care: 
            Provided in family day care homes, by relatives, and in the home
                       of the child.



     Transportation:             client may use private automobile or public transportation.

     Participants:             There is an average monthly caseload of 10, 310 children in day care.

     Anticipated Changes:               Training and work related expenses wil be    a new service under
                       JOBS.


     Basic Education And High School Equivalency

     Activity:            The following services are provided: recruitment, assessment of current educa­
                       tional skill level , adult basic education , English as a second language, high school
                       equivalency, group and individual counseling, information and refeITal , program
                       referral and job placement.

     How Provided: 
             In FY 1988 the DPW funded basic education and high school equiva-
                       lency services through four major sources: (1) direct educational contracts with
                       community based providers; (2) direct contracts with community based providers
                       for services for pregnant and parenting teens; (3) an interagency agreement with
                       the State ITPA agency to contract for education and training services with the
                       State s 15 SDAs; (4) an interagency agreement with the State community and de­
                       velopment agency to contract for outreach and education services with the State
                       20 largest public housing authorities. The ET participants also accessed educa­
                       tion services which were not supported by ET funds through programs offered by
                       adult education centers, regional vocationaVtechnical schools and community col­
                       leges.




      Massachusetts                                         PROGRAM PROFILE
                Services were delivered through a mix of services, including classroom
                instrction, computer assisted instrction , one-on-one tutoring, group and
                individual counseling, and information and refeITal services.

Participants:            800. Target groups for these services were those with limited English
                language proficiency, public housing residents, and pregnant and parenting teens.

Post-Secondary Education


Activity:          Vouchers are provided for ET parcipants for whom post-secondar education
                is deemed an appropriate activity. The vouchers can be used to enroll in up to
                two introductory courses at any community or State college. Further paricipation
                in post-secondar education is not supported with ET funds. Community and
                State colleges are also reimbursed for the cost of necessar counseling and sup­
                portve services.

How Provided:            The DPW contracts with the State Board of Regents to provide this ser­
                vice. The service allows ET participants to gain initial access to existing post-sec­
                ondar courses of study.
Participants:           700. This service is targeted to those AFDC clients whose employment
                goal requires post-secondar level education.


Job Skils Training

Activity:         Provides ET paricipants with the technical and professional vocational skills to
                qualify for targeted occupations. Job readiness , counseling, information and refer­
                ral, and job development, search and placement services are normally included in
                job skils training programs.


How Provided:            These programs are conducted through classroom instrction , hands-on
                training, job shadowing and job site visits. Provided through agreements with the
                State s ITPA system, Bay State Skils corporation , and direct ET contracts with
                community based providers.

Participants:             900. Of paricular value to AFDC clients who have CUITent educational
                skill levels equivalent to completion of eighth grade and have a clear occupational
                goal.

Placements:             000 priority jobs (includes a small number of participants of education ser­
                vices). These paricipants may also have received job development services be­
                fore entering employment.




Massachusetts                                      PROGRAM PROFILE
Job Development/Job Search/Job Placement
Activity:         A full spectrm of job development, search and placement services are offered
                as par of the ET program. This includes: identification of job openings, job read­
                iness, individual and group job search services, assistance with securing place­
                ment and follow-up after placement.

How Provided: 
          To deliver this service, the State s employment service has established
                employment network offices, with employment network staff collocated in some
                local welfare offices. Services are provided though group and individual job
                search.

Participants:          15, 500. Job placement is tageted to those clients who are job ready and
                who have recent work experience and strong basic skils.

Placements: 13, 000.


On-the-Job Training
Activity:        The ET parcipants receive on-the-job training (OIT) through the 15 JTPA
                SDAs. The program is operated under Federal ITPA guidelines.

How Provided: 
          Traning is provided , on- the-job, by employers.    The arrangements for
                OIT ar made by the State JTPA SDAs.

Participants:         Slightly less than 1 000. , Especially appropriate for those who are ready to
                work but would benefit from gaining specialized and/or technical skills.

Work Supplementation


Activity:         During work supplementation , the ET paricipant is hired by the contractor and
                out-stationed for a period of 2 to 6 months to worksites (in jobs created by the
                contractor) in both the public and private sector.

How Provided: 
          Provided by contractors using a supported work model. Work experi­
                ence is provided by worksite companies in both the public and private sectors.

Participants:             100. This activity is appropriate for long- term recipients, public housing
                residents.

Placements: 600.





Massachusetts                                      PROGRAM PROFILE
Anticipated Changes: 
          To develop a more flexible service, the job readiness and short
                term training offered as par of the supported work program wil be redesigned
                and become separate components which wil permt client flow through to sup­
                ported work or employment.

Post- placement (Follow-Up) Services

Activity:         For the most par, clients who have been refeITed to an SDA or program activity
                or have been placed into employment are followed-up incrementally depending
                on the length of stay at anyone of these activities.

How Provided: 
          DPW local offce staff follow-up on client progress        through telephone
                contacts with the client or appropriate program.

Participants:            All clients receive follow-up services post- placement.

Case Management
Activity:         Case managers have an ongoing relationship with their clients and provide
                them with introductory ET information. Case managers coordinate the activities
                of the other case management team members and initiate a case conference with
                the case management team, and the client, as appropriate.

                Case managers work parcularly   closely with their team s ET specialist to ensure
                                                      opportnity to paricipate in ET; (2) the
                that: (1) clients ar being provided the
                necessar support services ar being provided; (3) coordinated efforts are being
                made to identify and remove any barers to paricipation , and (4) case
                conferences occur at appropriate points.

How Provided: 
          This service is provided by I?PW staff working together and meeting
                with clients.

Participants:            Each AFDC recipient is assigned a case manager.




 Mcssac husetts                                     PROGRAM PROFILE
                                                                         Appendix A



AN OVERVIEW OF ET CHOICES PROGRAM

       The Employment and Training (ET) Choices program began in October 1983.
       ET is the Governor s program of employment and training services for welfare
       recipients and is the cornerstone of a strategy to extend economic opportunity to
       every needy citizen in the Commonwealth. The ET program is based upon the
       philosophy that welfare recipients should have the same employment
       opportnities available to other people, and the conviction that they wil make use
       of those opportunities if the necessar support services are available. Given this
       opportnity, welfare clients wil choose work over welfare. ET is committed to
       providing a route out of povert by overcoming the barers to employment.
       These barers include: iliteracy; an inabilty to speak English; insufficient
       education; a lack of marketable skils or work experience; the high cost and
       inadequate supply of day care; and the high cost of medical coverage. ET is
       successful because it offers clients a wide may of services to choose from in
       overcoming these barers. These include job placement , skils training,
       education , career planning, supported work, day care, and transportation.

       We expect at least 12 000 AFC participants to be placed in quality jobs in FY
        1990.

       ET is designed to encourage paricipation by thousands of AFDC recipients who
       have diverse needs. Many of them do not need job placement assistance and find
       jobs on their own. This group is not counted in ET placement figures. However
       certin recipient groups are likely to need help in achieving the goal of economic
       independence, and are therefore targeted for participation. These target groups
       include:

                 recipients of Hispanic origin

                 public housing residents,

                 pregnant and parenting teens,

                 recipients who have been on the caseload 2 years or more or have a
                 prior history of welfare assistance.




Massachusetts                          OVERVIEW STATEMENT                              A­
        Each client who enters any component of the Employment and Training program
        can expect to receive a continuum of services tailored to their individual needs.
        They can furer anticipate employment with benefits that wil allow their family
        to break the cycle of poverty.

        ET works because it addresses the barers to employment that welfare recipients
        face. Some successful program initiatives include:

Improving Education Attainment

        Approximately 50 percent of AFC recipients have not finished high school.
        The lack of a high school diploma can be a major barer to success in jobs with
        wages suffcient to support a family. In order to compete in the labor market, ET
        parcipants often need adult basic education courses and General Equivalency
        (GED) progrs to provide them with the skils necessar for jobs that lead
        economic independence.

Improving English Language Skils

        Since 1983, the number of Hispanic famlies on AFDC has increased by over 32
        percent, to 24 percent of the caseload. Lack of English language skils and low
        educational achievement among Hispanics severely limit the job opportunities
        available to them. Both English as a Second Language (ESL) and adult literacy
        programs provide the intensive instrction necessary to ensure Hispanic clients
        the opportunity to improve their English language skils.

Providing Marketable Skils



        Most families who   tu to public assistance do so because of a major change in
        famly circumstaces, such      as divorce , separation , death, or birth of a child.
        Many single parents suddenly find themselves having to support their families
        financially for the first time. Yet , because many of them had previously remained
        at home to care for their children , they lack the work experience and skills
        necessar to compete in the job market. The problem is even more acute for
        individuals who have been on the caseload for long periods of time. Skills
        training, basic education and supported work/assisted placement programs can
        provide individuals with the additional skils which they need to re-enter the
        competitive labor market.
Providing Affordable Day Care

        More than 50 000 familes, or 65 percent of AFDC families , consist of a mother
        and her children , under the age of 6. Clearly, in order for these parents to work
        day care must be available. Day care, however, is both expensive and diffcult to
        find. Day care subsidies are one way of providing a mother with the opportunity

Massachusetts                            OVERVIEW STATEMENT                              A-2
       to enter the workforce. Voucher day care has enabled thousands of AFDC
       recipients, including those with very young children , to find and remain in jobs.
       In fact, because day care is available through ET, the voluntar paricipation of
       mothers with children under six has increased from 18 percent, when the program
       began, to 58 percent in FY 1988.

Improving Health Care Coverage

       While on AFC, clients receive health care services through Medicaid. One
       the most serious obstacles to employment for many recipients is the prospect of
       losing the medical services provided by the Deparent. Unless a newly
       employed client receives health coverage through her employer, she may be faced
       with the diffcult choice of foregoing necessar medical treatment for herself and
       her children , or paying large out-of- pocket medical expenses which can leave the
       family worse off financially then they were when receiving welfare. To help
       overcome this barer, health coverage through health maintenance organizations
       and other managed care programs is avaiable for up to 12 months to ET
       graduates who do not receive employer-sponsored health insurance.



        As a result of our experience, we have initiated several management strategies
        which have had a significant role in the success of the ET program.

                Local Offce Accountability

                Each fiscal year the Deparent establishes ET goals that specify the number
                of referrals and placements each local offce is responsible for achieving.
                This system of local offce accountabilty has been instrumental in
                motivating local office staff because it directly ties individual local office
                performance to the overall success of the agency in meeting its goals for ET.
                In FY 1986, for the first time since the ET program began every      local offce
                met or exceeded its ET goals.

                Performance- Based Contracting



                With performance- based             contracting, contractors must enroll and place a
                minimum number of clients just to recover the costs of running their
                programs. They receive full payment              only if they meet negotiated job
                placement and performance goals. In FY 1989 , the Department toughened
                performance standards by instituting a higher wage floor for job placements.
                Contractors received payment only for full- time placements whose starting
                wages met or exceeded the new wage floor and only after they remained on
                the job at least 60 days. In addition , the Deparment s performance- based



Massachusetts                                  OVERVIEW STATEMENT                                 A-3
                contracts contain provisions that give contractors incentives for placing
                individuals in jobs with wages that substantially exceed these floors.

            Performance- based contracts ensure that resources are well spent and that
            program goals wil be met.

                Collaboration with Other State Agencies

                The Deparent has agreements with several State agencies to provide
                services to welfare clients. Agencies paricipating in ET include:


                      Deparment of Employment and Training;

                      Bay State Skils Corporation;

                      Deparment of Social Services;

                      Board of Regents;

                      Deparment of Education.

                By coordinating the services provided by these and other State agencies , ET
                has expanded the opportunities available to welfare recipients throughout the
                State. Interagency agreements allow the Department to tap into the expertise
                of other State agencies, thereby avoiding duplication of services. In an effort
                to provide continuity among services, staff from the agencies are often
                collocated in welfare offices. This way the ET paricipant has better access
                to the full range of employment services. The Deparment built on this effort
                in FY 1989 by consolidating most job placement , training, and education
                activities into a single interagency agreement with the new Department of
                Employment and Training.



                We recommend that other States consider these management strategies as
                they design and/or redesign their Employment and Training Programs.




Massachusetts                                OVERVIEW STATEMENT                             A-4
                                   Appendix B





Massachusetts   SAMPLE DOCUMENTS
                                                                                                    ... . ...,
                                                                                                   :::::         ......
                                                                                                                    .:: ................ .
                                                                                                           :::::::::::.                            $&;
          Your DePMmert
          01 PublIC Wellare
              ONE YEAR FAMILY INDEPENDENCE PLAN                                                         Cf:::      N:::::::::::::::::::::::::::::::::;::::
             The Case Manager and client s hould complete this section together.
Q:mPloyment and Training)                                                          (falth



                                                                                                   ajii Cholce
             Specialist                  Date                       Time                                   SpeCialist                                        Date          Time
Current Situation:                                                                          Current Situation:
Goal: 6 months                                                                              Goal: 6 months
12 months                                                                                   12 months
Barriers:                                                                                   Barriers:
    lld     suppo                                                                           ousln
             Specialist                     Date                   Time                                     Specialist                                              Date    Time
Current Situation:
                                                                                            Current Situation:
Goal: 6 months                                                                              Goal: 6 months
12 months                                                                                   12 months
Barriers:                                                                                   Barriers:
              Case Manager's Signature                                  Date                                      Case Manager s Signature                                         Date
FI P (Rev. 11/88)
02- 138- 1188-                                                                     SPECIALIST
                                                                                        ~~~                                     ::!g                                                                     !:!!::;::
Em     10 ent and Tralnin CHOICES Pr ram
ET can help you get the training and preparation necessary to find a job. ET is the program
that can increase your income through part-time or full-time work.
ET offers you free servs, which may include:
. Planning for the career of your choice;
                                                                                                                                         . Basic eduction to help you earn your high                                          school
. Skils training in a variety of high growt   ocupations, such as                                                                          equivalency degree (we even pay the test fee!);
 health care and computers;
                                                                                                                                         . Other opportunities such as college and Job
. Help in finding a good job through the Employment Network ,       th                                                                     Training Partnership Act (JTPA) funded programs;
 largest job bak in New England;
                                                                                                                                         . Help in locating and paying for child care; and
. Supported work - a friendly, supportive job placement where
  you ca   ear a paycec while learning a skin;                                                                                           . Transportation Allowance while                                participating.
Has anyone in your household parcipated in ET before? Yes                    No         If yes, wh               and whn?
If you have recently left a job, what problems did you have that made it difficult for you to continue working?                           Explain:
Do you or the other parent in the home have a physical or a mental incpacity that reduces caretaking or employment abiliies?                                    YesD t- D
                                                                  EMPLOYMENT AND TRAINING (ET) CHOICES ENROLLMENT
                I wish to enroll in ET.           Applicant                                                                                    Other Enrollee
                                                  Applicant' s   Signature                                                                      Other Enrollee s Signature
                                                  I have read the ET Rights and Responsibilties in my . Your Right To Know . booklet.                                             Yes

   Enrnee Nae:

                                                                                                                                                Social Security Number:
  Address:
                                                                                                                                               Telephone Number:
  , City/Zip:
                                                                         Number of children
  Do you    ne help with child care? Yes          0 No 0                 Ages of children                                                      Do you need help with transportation?                                                      Yes           t- 0
                                                                                                                                               Explain :
  Explain:
   What    tys of jobs interest you?
  What type of training or education interests you?
   Chek here "you woud like more InfnnUon about ET CHOIESI
                                                                                            :!:!:::::;::::!::::::::m   I::itt          gglll::i1:11   ::i:::i::i:::::Rg::::::::::::::::::I:::::
                                                                                                                                                                                             :i::!::::           ::i:::::::::;:::::!!!:::::::::::::\1
                                                                                                      ET SPECIALIST
..............................                                                                           :.... p.





What Is ET?                                                                         IST 6L&""   Uvuu..
                                                                                    Success Stories p.

. ET is ajob paying $12, 000 a year. That's over $230 a week!

. ET                is control over your life.

. ET                is buying yourself a present.

. ET is respect.


. ET is a bettr                  life for you and your children.





ET Provides:
o childcare vouchers                                    o job placement
o education                                             o counseling


o job training                                          o trnsporttion allowances




ET is short for Employment & Training CHOICES. It is a group of ser­
vices sponsored by Your Departent of Public Welfare that can help you
learn a skill and/or find ajob that pays you enough to get off Welfare.

With ET you are in control. You choose which services to use, which skil
to learn and what job to take.

There are four parts to the ET program: The Employment Network
Supported Work , Education and Training, and Career Planning. Depend­
ing on your needs , you may use any or all of these services. The choice is
yours .
How Can 
                                       ET Help Me?
ET wil help you find ajob, it s tht simple. How it wil help you
depends on what services and programs you need to reach your
goals.             of the four free ET CHOICES is right for you:
            One or more

The Employment NetWork, Support Work, Education and Train-
ing, Career Planning. This questionnaire wil give you a goo idea
which of the four choices might help you most.




I have never worked.

I would like to do work I've done before.

I need new skills for the job I want.

I am ready to work tody.

I need time to get back into the work routine.

I don t know what kind of work I want to do.

I have the skills I need for the job I want.

I didn t like any of the jobs I've had.
I need my GED for the job I want.

I'm nervous about working again.

All I need is help finding ajob.

I want to continue my education.

It's been a long time since I've worked.

I'm wiling to go to training for a few months.

I know exactly what I want to do.

I want to work, but I don t know where to start.



                                                                   Tota

   Add up the number of marked boxes for each column. Your answers wil help you find out how
   ET can help you. To find out what your scores mean turn to the back page.
                               . "


Over 30 00 people have been helped. by ET CHOICESe
Here s what some of them have to say about ET.

                      I have always wanted to get into electronics , but I
                      never finished high school so I didn t know I could do
                      this. I'm proud of myself. I did it for my children and
                      myself. "
                       Carmen C.



                                     On Welfare , I felt trapped. It was like living in a cage.
                                     I feel great, like a new person. ET CHOICES opened
                                     the door out of the Welfare trap.
                                     Doris L.





                       I'm earning nearly three times what I got on Welfare.
                       I have been able to move into a new apartment , take
                       my son on a vacation , and buy a car.
                       Dawn L.


                                  I think ET is a real good program. It's like having
                                  training wheels on a bicycle; if you have any prob­
                          y     lems , they re there.
                                     Madeline R.





ETworks!

It worked for them and it can work for you.

Keep reaing to find out how.
Ma                           Plans

Here are some things you should do
before you sign up for an ET CHOICE.



            Talk to your Caseworker. Signing up for ET
            is an important step. Make sure this is the
            right time for you to do it.




                               Talk to an ET Worker. Before your appoint­
                               ment, make a list of questions you want to
                               ask. Then don t be afraid to ask them! The
                                What About... " section in the back of this
                               booklet can give you some ideas about things
                               you ll want to know.




            Talk to your famy. This wil affect them
            too. You wil need their support to make it
             work.




                                                 ET Action Plan.
                               Stat designing your
                               Ask your ET Worker for a copy of the ET
                               Owner s Manua to help you get started.



             When you re sure- GO FOR IT!
1 .




 The Choices

       If you are job ready

       The Employment Network
       If you ve got the skils you need for the job you want , the professionas of
       The Employment Network wil help you get it. They are specialists with
       the Massachusett Division of Employment Security and have the largest
       job bank in New England. They wil help with your resume and give you
       free use of telephones and copy machines. They wil also help you prepare
       for the work of looking for a job- including workshops on interviewing
       and on dressing for work.

                            If you have been on welfare for           or more years
                            and haven t         worked for    years

                            Supported Work
                            This service places you in a job with a business or company. Your salary
                            is initially paid by the ET CHOICES progra. You receive on- the-job
                            training and a chace to brush up on your skills while performing a job
                            necessary to the company. After the support work training, you wil
                            become a regular employee of the company with the same salary and
                            benefits as their other employees.

       If you want to lEarn a job skill

        Education and                                Trai
        This part of ET can help you get the skills training or education you need

        to quaify for the kind of work you d lik to do. Businesses, schools, and

        the government are working together to provide valuable job training and

        education tht match tody s jobs. This includes improving your English

        or getting your GED. There are may, may different types oftraning

        available; your ET Worker can tell you what programs are available where

        you live.




                             Career                     Plan
                             If you want to discover what kind of job is right for you



                             Together with a career planning counselor you wil find out what your
                             talents , skills , and interests ar. The counselor will help you decide what
                             careers are right for you based on your skills and interests. With the coun­
                             selor s help you wil be able      o put together a plan tht can get you where
                             you want to be.
                  ":::.
                  .. '. ::-                       .,.




                                                                                                 Wht 

                                                What about chidcae?
                                                Childcare services ar available to all ET participants who need them
                                                   Almost all of the cost is paid by ET CHOICES. A childcare coun­
                                                selor wil help you choose the appropriate childcare option and facility
                                                from a list provided for you. All the childcare homes and centers have
                                                been approved by the Offce for Children. You can even keep your
                                                child in daycare through the voucher system for one year after you get
                                                your job.




What about transporttion?
ET covers the cost of transporttion for you and your children in day-
care. no matter which ET program you participate in.


                                                  Wht about my grt?
                                                  Your AFDC grat and your Foo Stap allowance wil not be affected
                                                  by your ET paricipation. These benefits wil not change until you start
                                                  earning money.


What about Medicaid?
Your Medicaid benefits stay the same as long as you continue to reeive
AFDC. If you leave AFDC because of job eaings, you wil continue
to receive your Medicaid benefits for at leat 4 months. However, if
you enroll in a Health Choices program, you wil    receive fre heath
car for up to 12 months.

                                                  What if I mae a mistae in my choice
                      :5 ,    . 0	                No problem. Remember you ar in control. You decide whl h Job to
                                                  take or what training progra to enter. You can say .. no " II) ,m ' por­
                                                  tunity that doesn t meet your nees. ET is a " no obligatl(m " rn)gram.



What about getting my GED?
Through the Education and Training choice you can take classes to
prepare for your GED , including any help you might nee with reing
and basic math skills. ET wil also pay the GED exam fee.
About

What about college?
The ET CHOICES program wil pay for two courses at any State or
Community College in Massachusetts. This wil give you a chance to
see if college is for you.



                                                  What about clothes for my new job?
                                                  When you get ajob through The Employment Network you wil receive
                                                  a clothing bonus 01'$100 so you can look your best on your new job.


Where wil I get my training?
The ET program contracts for skills training at vocational schools,
training institutions, and colleges all over the state. You wil be among
people who are interested in the same kind of work, including other
ET enrollees and people who are there on their own.

                                                  What about a time limit?
                                                  There is no time limit. Depending on the training program you select,
                                                  you may be ready for ajob in a few weeks, while other programs may
                                                  take several months.


How much money wil I earn on my new job?
The average starting salary for ET graduates is $12 00 a year-more
than twice the average AFDC grant. In addition , most of the jobs peo­
ple find through ET have excellent health benefits and paid vacations.

                                                  What if I have problems or questions?
                                                  Your ET Worker and your Caseworker are there to help.




 Does the ET Program work?
 Yes. Since it started in 1983 , over 30, 000 people have found jobs
 through ET.



                                                     If you have any other questions or are interested in registering for ET.
                                                     call your local Welfare Offce   and make an appointment    with an ET
                                                     Worker.
                                                                                          JOUJeAOO ' S!)!8)na           ' S leell:)!
                                                                                     suesnll:)esse           10   IIJleeMuowwoO
                                                                                                                   aJ8IIeM :)IIqnd
                                                                                                        10    JuewJJedea JnQ,
                                                                                                                   10   weJ60Jd e S!
                                                                                                                          S3010HO
                                                                                                   6u!u!eJJ. 'b JUewAOldw3




Scorin " How Can ET Help Me?" on page 2
What your score means:
If your highest score is for:

You are ready for The Employment Network. You just need                       You are probably best suited for the Supported Work choice,
some help learning about job openings and how to be the one                   Supported Work will help you ease back into the work routine
employers hire.                                                               without the pressures that come with starting a new job,


Your starting point wil probably be Education and Training,                   Your most immediate need is for Career Planning. Your coun­
where you can get the skils      and/or education you need to                 selor wil help you determine what your next step is and which
fulfill your goals.                                                           of the other services would give you the most assistance.

The choice tht you    score highest in is   not   the only choice you might make, This is just the choice that is                  likely   to help you the
most, based on your answers.

This questionnaire is just to give you an idea of what ET services you can take advantage of. Your ET Worker is the person who
wil be able to sit down with you and go over your goals and desires in great detail,
                 \. .:




                                Departent of                                                                    TARGETED JOBS
                               Employment                                                                       TAX CREDIT
                              and Training
                                                                                                                PROGRAM


                                         SAVE UP TO $2,400 FOR EACH PERSON YOU HIRE THROUGH

                                               THE TARGETED JOBS TAX CREDIT PROGRAM

Margaret, a                welfare recipient, is hired by         five TJTC workers received a tax credit of    to the TJTC Unit on or                       before the day the

XYZ,       Inc. Through her new job, Margaret                     $12, 000 (Your net savings will depend        employee starts work.                        We will then send
becomes economically self-sufficient                              your tax bracket and individual tax situa­    you a kit that wil help you determine if
and XYZ benefits in two ways XYZ                                  tion; your tax specialist can tell you more   the candidate is TITC eligible. You and
receives                 qualified applicant and        $2, 400   about your savings potentiaL)                 the employee complete the simple appli­
tax credit.
                                                                                                    cation process and mail it back to the
                                                                  How Can I Find Qualified EmployeesJ           TjTC Unit.
A furniture company hires Michael for 
                           Your local D. T. Opportunity Job Center
summer             job. Since Michael is            an  eco­      wil help you find qualified candidates        Eligible applicants include:
nomically disadvantaged                      teenager the         who are TJTC eligible. We take your job
                                             $7, 200 tax credit                                                 . ET    CHOICES participants andrecip­
company is eligible                  for a                        order and prescreen applicants to save           ients of Aid to Familes with Depend­
under the Targeted Jobs Tax Credit
                               you valuable time and ensure that appli­
program.                                                                                                           ent Children (AFDC);
                                                                  cants referred to you are qualified. Your
                                                                                                                . General Assistance (Welfare)

                                                                  local Opportunity Job Center also pre-           recipients;
What is The Targeted Jobs Tax Credit                              screens candidates to see if they are TjTC
Program (TJTC)?                                                                                                 . Youth ,           aged    78    to   22,    from economi­
                                                                  eligible and completes the majority of
TjTC is a federal tax credit that you                                                                              cally disadvantaged families;
                                                                  the application process for you. TjTC
receive when you hire economically dis­                           identifed applicants present vouchers
                                                                                                                . Youth ,  aged 76 to 79, who are econom­
advantaged job applicants from targeted                                                                            ically disadvantaged and participating
                                                                  during their job intervie ws so that you
groups. This federally funded program,                                                                             in   an   approved cooperative education
                                                                  will be aware of the tax benefits asso­          program;
administered in Massachusetts by the                              ciated with hiring them. Just call the
Departmen r of Employment and Train­                                                                            . Vietnam-era veterans  who are eco­
                                                                  Opportunity Job Center nearest you to            nomically disadvantaged;
ing, (D.       ), helps bring thousands of                        learn more about TITC and other pro­
                                                                                                                . Handicapped individuals referred by
residents into the economic mainstream                            grams that address your employment               state vocational rehabilitation services
each year. You can join hundreds of                               needs. (See listing on reverse side.
                                                                                                                  or the Veterans Administration;
Massachusetts employers who tap into
                                     thou­                        How Do I Apply for TJTC?                      . Certain ex-offenders;
this hidden job market      and save

sands annually,                                                                                                 . Supplemental                   Security Income (SSI)
                                                                  We have simplified the process for you. If
                                                                                                                   recipients;
                                                                  the candidate has been referred by your
How Much Can I Save?                                              local Opportunity Job Center, he or she
                                                                                                                . Economically disadvantaged                             summer
The TjTC tax credit is equal to 40 percent                                                                         youth          76   to   77 years         of   age.
                                                                  will have a TJTC voucher; you just answer
of the employee s first year s wages up                           a few questions on the voucher and mail       Once we have your application, we verify
to $6,     000 or as much as a $2,400 credit                      it to the Department of Employment and        the candidate s eligibility, and you will
 (0.40     x $6, 000) for each eligible individual                                   within five days after
                                                                  Training TJTC Unit
                                                                                                                receive notice of certification within
 you hire.                                                        the employee s actual start date.             two weeks.

 For eligible youths employed for the                             You can also apply for TJTC for any new       To obtain your tax credit, you file an
 summer , the credit is 40 percent of the                         employee you hire. If you think an            Internal Revenue Service Jobs Credit
 first $3, 000 in wages paid or $1, 200 maxi­                     employee is TITC eligible, as indicated by    Form 5884 with your taxes which is avail­
 mum (0.40 x $3, 000).                                            the list below, simply write your request     able through your local IRS office. The
                                                                  on company letterhead, including the          form asks you for the number and wages.
 You can hire qualified workers and save                          employee s name, address, social security
 valuable tax dollars. There is virtually no                                                                    of your TJTC certified employees.
                                                                  number , and actual start date, and send it
 limit to the number of TjTC candidates
 you can hire. One company who hired




                                                                                                                Commonwealth of Massachusetts
   1555 ( RI.'                                                                                                    Michael    S.     Dukakis, Governor
                                                                                                                 . Grady 8, Hedgespeth
                                                                                                                  Secretary of Economic Affairs
                                                                                                                  Marlene      B.   Seltzer. Commissioner of
                                                                                                                  Employment         and Training
#? .-



Coan All Types of    Employers Participate        your local Opportunity lob Center or         Please submit all TITC requests,
in T,TCt                                          the Department of Employment and             vouchers and applications to:
All private employers in trade or                 Training TJTC Unit for more details at
  usinesy are eligible. Restrictions apply        (800) 392- 6209.                             Depart ent of Employment and Training.
in the following situations: federal                                                           T,TC Unit, First Floor
payments for on-the-job training,                 How Can I Find Out More About T,TCt          Government Center
rehiring TITC eligible employees, family          For your specific questions about TJTC,      19 Staniford Street


members, current employees and those              the TJTC Hotline is here to help. Our        Boston, MA 02114-2589
employed in private residences. Call              toll- free number is (800) 392- 6209.



 Your local Opportunity Job Center is available to assist you with all your employment needs. To find out more, call the office
 nearest you:


                                    Greater Boston
                                         Boston                                    (617) 727- 6320
                                         Cambridge                                 (617) 864- 1950
                                         Chelsea                                   (617) 884- 5850
                                         Framingham                                (508) 875- 5237
                                         Malden                                    (617) 322- 8890
                                         Marlboro                                  (508) 485- 8711
                                         Norwood                                   (617) 762- 9450
                                         Roxbury                                   (617) 442- 4050
                                         Waltham                                   (617) 899- 9340
                                         Woburn                                    (617) 935- 4654

                                    Northeastern Massachusett
                                         Gloucester                                (508) 283- 4772
                                         Haverhil                                  (508) 374- 4753
                                         Lawrence                                  (508) 682- 5217
                                         Lowell                                    (508) 459- 0563
                                         Lynn                                      (617) 593- 5504
                                         Newburyport                               (508) 462- 4494
                                         Salem                                     (508) 745- 1860

                                    Southeastern Massachusetts

                                         Attleboro                                 (508) 222- 1950
                                         Brockton                                  (508) 586- 8100
                                         Eastham                                   (508) 255- 740
                                         Fall River                                (508) 679- 9200
                                             Hyannis                               (508) 775- 5800
                                             New Bedford                           (508) 999- 2361
                                             Plymouth                              (508) 746-5910
                                             Providence. RI
                       (401) 277- 3743
                                         Quincy                                    (617) 471- 2750
                                         Taunton                                   (508) 824-5835
                                         Wareham                                   (508) 295- 6170

                                    Central Massachusett
                                             Clinton                               (508) 365-4452
                                             Dudley                                (508) 943- 1240
                                             Fitchburg                             (508) 343- 641
                                             Gardner                               (508) 632- 5050
                                             Milford                               (508) 478- 4300
                                             South bridge
                         (508) 765- 5252
                                             Worcester                             (508) 791- 8551

                                    Western Massachusett
                                         Athol                                      (508) 249- 7130
                                             Chicopee                               (413) 598- 8371
                                             Greenfield                             (413) 774-4361
                                             Holyoke                                (413) 538- 8271
                                             North Adams                            (413) 663- 3748
                                             Northampton                            (413) 586- 3116
                                             Palmer                                 (413) 283- 8271
                                             Pittsfield                             (413) 447- 7324
                                             Springfield                            (413) 785- 5357
                                             Ware                                   (413) 967- 7290




   1555- E Rev. 2.
